SCOPE

       We reviewed Federal statutes and Office of Management and Budget (OMB) Circular A-
11, Preparation, Submission, and Execution of the Budget (Circular A-11). We also reviewed
the NLRB Administrative Policies and Procedures Manual Chapter FIN-1, Budget Planning and
Operations, dated May 29, 1992 and updated on May 3, 2006 under the same title as Chapter
BUD-1, and interviewed the Chiefs of the Budget Branch (Budget) and Finance Branch
(Finance) to identify NLRB’s policies and procedures for budget execution.

       We performed trend analysis and detailed deobligation transaction testing. The trend
analysis included obligation and deobligation activity from FY 1999 through FY 2005 using
Standard Form 133, Report on Budget Execution and Budgetary Resources, submitted to the
Department of the Treasury, and Standard Form 132, Apportionment and Reapportionment
Schedule, submitted to OMB.

        We tested 35 deobligations made from FY 2003 through FY 2005 of $10,000 or more
that occurred after the fiscal year ended in order to determine whether the items were properly
managed. Testing included reviewing the contract or purchase order, evaluating accounting
reports, and interviewing the responsible employee.

       We conducted this inspection from January through August 2006 at NLRB Headquarters.
This review was done in accordance with the Quality Standards for Inspections issued by the
President's Council on Integrity and Efficiency.


BACKGROUND

        The budget process consists of formulation, submission, approval, execution, and
reporting. Budget execution begins with enactment of the appropriation, obtaining OMB
approval of apportionments, and making allotments to Agency components. Allotments are
amounts made available by the Agency Budget Chief to allottees. The Agency has four allottees:
Board, General Counsel, General Agency, and Information Technology.

        Allottees may designate persons or positions as allowance holders to manage allotment
subdivisions for a particular program or organizational segment. Funds are allocated to
allowance holders based on an operating plan. Allowance holders or their designees also sign
documents obligating funds. Execution involves monitoring achievement of the plan and
executing changes to provide the best use of funds. Budget is responsible for managing and
reporting on Agency budget execution.




                                                2
RESULTS

Lapsed Appropriations

        Each fiscal year the NLRB receives a 1-year appropriation. The authority to make new
obligations from an appropriation expires when the fiscal year ends. The amount of the
appropriation not obligated by the end of the fiscal year is said to be expired. Expired amounts
are available for adjustments to valid obligations made during the appropriation year. After 5
years, the appropriation is cancelled and unavailable for any purpose. Expired and cancelled
amounts are jointly referred to as lapsed.

       For 6 years, FY 1999 through FY 2004, more than $1 million, on average, lapsed each
year. A significant and growing portion of those funds were never obligated. In FY 2005,
$455,357 was not obligated, the largest amount in any year we reviewed. The amount of funds
deobligated after the fiscal years ended also had an upward trend. The Agency deobligated $1.2
million of the FY 2003 appropriation in the 2 years after the end of the fiscal year compared with
$630,000 of FY 1999 funds deobligated in the 5 years after that fiscal year ended.

        The combined unobligated and deobligated amounts for FY 1999 to FY 2005, as of
September 30, 2005, are shown in the following table. The line in the table below titled
"Adjustments" is the sum of two line items on the SF 133. One item represents increases in
obligations after the year-end and the other represents amounts received after the end of the
fiscal year occurring until the appropriation expires.

                          Unobligated and Deobligated Appropriations

                   1999        2000         2001        2002        2003        2004        2005

 Appropriation
 ($ millions)     $184.451     $205.717     $216.438 $226.450       $237.429 $242.633 $249.860

 Not Obligated     124,544      305,172      255,386    338,949      435,844    392,805    455,357

 Deobligated In:
       2005                   157,222     40,059   32,713    371,234 618,550
       2004          5,423     49,199    721,567 334,847     842,703
       2003        33,939     118,144    150,444 633,400
       2002        98,012     404,075    184,589
       2001       146,239     280,510
       2000       368,551
    Adjustments (22,555) (110,936) (234,146) (631,304)        51,808 (271,455)
 Total
 Deobligated      629,609     898,214    862,513 369,656 1,265,745 347,095      0
 Lapsed          $754,153 $1,203,386 $1,117,899 $708,605 $1,701,589 $739,900 $455,357
 Status          Cancelled Cancelled Expired     Expired  Expired    Expired Expired

                                                3
Unobligated Funds

        The Antideficiency Act prohibits an agency from obligating more than its appropriation.
To avoid a violation of that act, the Agency reserves appropriated funds. The amount to leave
unobligated as reserve for potential unrecorded or incorrectly recorded obligations and
contingencies is at the discretion of Agency management. Agency policy does not identify how
to determine the reserve. The Budget Chief stated that Agency records indicate that reserves
have not been recorded in the operating plan and there is no need to do so. Additionally, the
Agency has been able to rely on savings generated from normal attrition and plans on amounts
that were estimated too high outweighing amounts estimated too low.

        The Budget Chief said that the goal for FY 2005 was to reserve $250,000 to $400,000 of
the Agency's appropriation. In keeping with past practice, the FY 2005 appropriation was fully
allocated throughout the Agency’s operating plan and a reserve was not identified. The
operating plan is prepared by Budget and reportedly approved by the Chairman and the General
Counsel. Documentation of this approval, although requested, was not provided.

        Reserving $400,000 or more may not be necessary. We think factors that should be
considered in determining the reserve amount include the inherent risk of the Agency
environment, strength of internal controls, and experience with Antideficiency Act violations.
Because approximately 90 percent of the Agency’s annual costs are payroll and facilities related
items, the inherent risk of significant unexpected budgetary requirements is low. Additionally,
Federal Managers' Financial Integrity Act assessments and financial statement audits have not
identified material deficiencies related to budget execution.

       The Budget Chief stated that even though 80 percent of the budget is devoted to
personnel costs, risks exist - particularly at year-end. Included in the risks are 21 employees
whose lump sum leave payments would exceed $50,000, 2 of which would exceed $125,000.
Other risks include untimely information from Government and private contractors that result in
upward adjustments to obligations.

        The amount of NLRB appropriations not obligated has generally increased, and the
amount unobligated for FY 2005, $455,357, was the highest of any year in our review. This
occurred even though the Budget and Finance Chiefs meet with allowance holder representatives
during the year and in September to assess the status of the budget which includes identifying
amounts not needed that can be reallocated for other purposes. For example, meetings during
FY 2005 were held on October 14, 2004, and on January 12, April 13, July 14, and September 15
in 2005, to assess the status of the budget. The Budget Chief noted that the Finance Chief visits
each allowance holder's representative frequently to prompt them to review their reports and
obligations and submit any necessary deobligations prior to the end of the fiscal year. Such
meetings, however, have not been sufficient to prevent funds from lapsing. Nevertheless, the
Budget Chief stated that the Agency did a great job last year, leaving only $455,357 unobligated
from a budget of almost $250 million.

      Budget reallocated approximately $3.2 million between allowance holder accounts in
September 2005 (Attachment 1). These reallocations included significant reductions in

                                               4
allowance accounts for the Division of Operations-Management (Operations-Management) and
the Procurement and Facilities Branch (Procurement), however, about $75,000 remained in each
account that was not obligated by year-end. The reallocation added $2.4 million to the
Information Technology allowance holder on the last day of the fiscal year. More than $42,000
of this amount was not obligated and the validity of a $758,875 obligation made on September
30, 2005, has been questioned because it related to services to be provided solely in FY 2006.

        The reallocation of funds was not completed until September 30, 2005. The reallocation
of these amounts so late in the year did not allow adequate time for proper procurement
planning, execution, and obligation processing.

        Management said that they had been in contact with OMB earlier in the month to request
the reapportionment and notified the budget examiner to expect another apportionment later in
the month when more current information was available. Budget stated that they were told to
wait until that information was available and make their entire request at one time. The Budget
Chief said that the appropriate people were made aware of the potential availability of funds and
were asked to proceed accordingly.

        Since the reallocation did not occur until September, the identification of amounts for
reallocation should have been more precise. Because Budget did not maintain documentation to
support the analysis performed or the basis for the reallocation of funds, we were not able to
determine the cause of the lack of precision.

        An example of this lack of precision is shown in the amount of unobligated compensation
and benefits. Despite Board Member staffs being similar in size, after the reallocation one Board
Member had $5,887 in unobligated compensation and benefits while another Member only had
$1,807. The Division of Administration, with 103 full-time equivalents (FTE), had $3,187 in
unobligated compensation and benefits, but the Division of Enforcement Litigation, with 109
FTE, had $13,396. Operations-Management field operations, with 1,284 FTE, had $18,454 in
unobligated compensation and benefits. Another indicator of a lack of precision is the ratio of
unobligated compensation versus benefits, each of which is recorded using a different object
class. Agency-wide, employee benefits were 23 percent of compensation. The ratio of
unobligated benefits to compensation for allowance holders after the reallocation ranged from
less than 1 percent to 201 percent.

         The following schedule shows amounts that were not obligated in FY 2005 by object
class.

                         Object Class                           Amount
                         Travel                                 $132,147
                         Rent, Communication and Utilities        93,643
                         Compensation and benefits                80,861
                         Contract Services                        81,771
                         Other                                    66,935
                            Total                               $455,357


                                                5
       Other significant unobligated balances by office included $72,763 for rent,
communication, and utilities in Procurement; $62,110 for travel in Operations-Management-
Headquarters; $35,019 for contract services in the Library and Administrative Services Branch;
and $19,700 for the transportation of things in field offices.

        The Budget Chief disagreed that a lack of precision existed. He said that balances in
Board Member accounts were purposely left to cover the Board’s share of the reserve. The same
strategy was followed of intentionally leaving balances for salary and benefits in other divisions.
As money was moved at year-end, unobligated balances no longer matched traditional ratios.


Deobligations after Year-End

       FIN-1 requires prompt recording of all financial transactions affecting NLRB’s
appropriation. Recording transactions includes adjusting recorded amounts when an estimate
was used and actual cost or a better estimate becomes known.

        Deobligations made after year-end of obligations for FY 1999 through FY 2004 have
been between $347,095 and $1,265,745, an average of $728,805. Deobligations can occur
because precise information regarding the obligation is not known before the end of the year in
which the obligation is made, or because Agency management did not diligently monitor
obligated amounts.

        Four of the 35 deobligations tested resulted in the Agency having obligated $66,979 more
than was needed to ultimately pay for the items or services purchased. In these instances, the
Agency used a reasonable method of determining the obligation, but information providing
precise amounts was not available before the year-end. For example, the Agency obligated
$160,000 on September 11, 2003, for carpet and paint work. The amount of the obligation was
based on an estimate provided by the General Services Administration. The Agency was
actually billed $105,061 for this work, and the remaining $54,939 was deobligated in FY 2004.

        Nine of the 35 deobligations tested were related to permanent change of station (PCS)
moves. These resulted in the Agency obligating $169,950 more than was ultimately used to pay
for the moves. The cost of a PCS move is difficult to precisely estimate, particularly the costs
associated with selling and purchasing a residence and the related income tax. Also, the
settlement dates for the sale and purchase or lease termination transactions for which
reimbursement is requested can occur up to 2 years after reporting for duty at the new duty
station. This time may be extended up to an additional 2 years for reasons beyond the
employee's control and acceptable to the Agency. This makes it unlikely that refined numbers
would be available to deobligate a significant amount of funds before the appropriation expired.

        The procedure used to estimate these items is to ask the employee the expected sales
price of their residence and the planned purchase price of their new residence. Based on this
information, Finance applies a standard rate related to each transaction and the related taxes.
Finance has not evaluated historical data to determine whether the factors used in the estimates
could be refined.

                                                 6
        The Budget Chief stated that a historical analysis would not be useful given the volatility
of the real estate market combined with the significant time lag to submit claims. We believe an
analysis might identify ways to improve the accuracy of the estimates.

       Twenty-two of the 35 deobligations tested resulted in the Agency obligating $653,206
more than was necessary to pay for goods or services purchased. All of these were cost
reimbursement agreements. Most of these deobligations after year-end were due to ineffective
monitoring of obligations by allowance holders. This occurred despite the Finance Chief visiting
allowance holder representatives to remind them to review reports, verify obligated balances, and
submit timely and accurate deobligation reports. In many instances, the exact cause for the lost
funds was not known because documentation was not available and the responsible officials no
longer work for the Agency. Some examples of ineffective monitoring are shown below.

   •   $80,758 was deobligated in FY 2004 from a purchase order for voice mail services. This
       was the entire amount obligated on September 9, 2003. The Agency decided the services
       were not needed.

   •   $28,000 was deobligated in FY 2005 from a cost reimbursement interagency agreement
       for printing of decisions and orders. This was the entire amount obligated in FY 2004.
       No printing was ordered. The agreement was not monitored when the manager was on
       extended sick leave.

   •   $31,875 was deobligated in FY 2003 from a cost reimbursement interagency agreement
       for commercial telephone toll charges. This amount was obligated on July 23, 2002.
       Amounts previously obligated were sufficient to pay the charges.

   •   $11,162 was deobligated in FY 2003 from a cost reimbursement interagency agreement
       for a training videotape. A total of $18,000 had been obligated on July 25, 2002.
       Although the work was completed in FY 2002, follow-up was not performed to obtain
       the $6,838 actual cost information before the fiscal year ended.

   •   $30,834 was deobligated in FY 2004 from a cost reimbursement interagency agreement
       for child care services. A total of $40,000 had been obligated in FY 2003. Information
       was not available on the cause for this deobligation due to Agency personnel retirements
       and inadequate records.

   •   $80,933 was deobligated in FY 2005 from a cost reimbursement help desk support
       contract. A total of $2,684,955 was obligated for work during FY 2004. Records were
       not available to explain the cause for the excess obligation and the manager retired.


Regulation

        The Antideficiency Act requires that each agency head prescribe, by regulation, a system
of administrative control of funds, also called a fund control system. Circular A-11 states that
these regulations should be reviewed periodically to determine whether improvements should be

                                                 7
made. At a minimum, agencies should review systems whenever OMB issues revised guidance
on budget execution, an agency is reorganized, or when staff from an agency has violated the
Antideficiency Act.

      The Agency has not published regulations regarding its fund control system. The
Agency's system of funds control is described in BUD-1, an internal policy document.

        Management disagreed with our suggestion to publish regulations because BUD-1
establishes a system of funds control. Describing this system in an internal document does not
meet the requirement identified in the Antideficiency Act to have a published regulation.
Regulations required by the Antideficiency Act must be approved by OMB. The Agency's
internal documents are not normally reviewed or approved by OMB.


SUGGESTIONS

We suggest that the Budget Chief:

   1. Implement a policy to determine and document the amount of funds to be held in reserve
      commensurate with the inherent risk and the internal control environment.

   2. Implement a policy to document analysis performed during the year by Budget and
      allowance holders with special attention to cost reimbursable contracts.

   3. Work with the Finance Chief to evaluate the methodology used to determine obligations
      for household moves.

   4. Make allowance holders aware of the need for special attention on cost reimbursement
      contracts to ensure the accuracy of the obligation amount and to timely update that
      amount for changes in contract cost.

   5. Develop and publish regulations regarding the Agency's system of funds control.

Management Comments and OIG Response

       Management provided extensive comments on our draft report disagreeing with many of
our conclusions and all suggestions and strongly believes that the reserve should not be reduced.
We integrated their comments as appropriate throughout this report. We believe our suggestions
should be considered as possible ways to improve the budget process.

       Throughout the response, management referred to OMB guidance that recommended the
reserve be .5 percent of the appropriation. No such policy or advice exists in written OMB
guidance and Budget was unable to provide a basis for the reserve amount during the course of
our review. The Director of Administration said the .5 percent was guidance from a prior OMB
budget examiner given to the former NLRB Budget Officer more than 10 years ago. The current



                                                8
OMB budget examiner for NLRB said that no upper or lower reserve threshold exists and that
the amount is left to the Agency's discretion.

        Management repeatedly emphasized that the reserve percentage never exceeded .18
percent. They further stated that, under generally accepted practices, reserves can range up to 2
percent. We believe that the goal should not be to maintain the reserve at a certain percentage
level. The reserve should be risk based and set at the minimum level sufficient to cover
unanticipated obligations.

        We made several suggestions to either develop or evaluate procedures to determine or
document items impacting budget execution and provide additional guidance to allowance
holders. Management concluded that enough guidance was provided. We believe the number of
deobligations that occurred after the end of the fiscal year that resulted in a significant amount of
funds lapsing indicates a need for additional procedures and guidance.



cc: Board
    General Counsel
    Gloria J. Joseph, Director of Administration




                                                   9
                                                                    ATTACHMENT 1



                    REALLOCATIONS BY ALLOWANCE HOLDER
                           During September FY 2005

                                  August        September                    Total
      Allowance Holder             2005            2005        Change      Unobligated

Decreased
Member                             $2,811,591     $2,788,991    $22,600         $5,021
Member                              2,530,343      2,287,343    243,000          4,921
Member                              2,721,139      2,586,039    135,100          4,421
Member                              2,603,939      2,514,039     89,900          5,023
Chairman                            3,156,139      3,017,639    138,500          7,812
Judges                              9,846,959      9,700,858    146,101         22,935
Inspector General                   1,127,924      1,110,324     17,600          4,853
Chief Information Officer           3,440,000      3,328,000    112,000          5,286
General Counsel                     2,387,600      2,372,600     15,000          3,625
Administration                      9,327,528      9,095,689    231,839         16,853
Operations-Management – HQ        134,191,890    133,675,547    516,343         75,396
Operations-Management – Field       3,319,000      3,166,124    152,876         74,354
Advice                              5,034,184      4,992,284     41,900          1,979
Enforcement Litigation             12,856,172     12,686,811    169,361         15,280
Equal Employment Opportunity           29,000         14,000     15,000          4,106
Employee Development                1,131,000      1,011,000    120,000          1,410
Security                              142,000         64,000     78,000          8,783
Procurement & Facilities           32,214,368     32,032,768    181,600         78,902
Human Resources                     2,168,500      1,859,800    308,700          9,670
Claims & Indemnity                    277,526         79,526    198,000          5,268
Previously Unallotted                 269,440              0    269,440

            Total                $231,586.242   $228,383,382 $3,202,860       $355,898

Increased
Executive Secretary                $5,284,614     $5,383,414    $98,800        $18,071
Library & Administrative                                                        39,229
Services                            2,501,700      3,205,760     704,060
Information Technology             10,600,000     13,000,000   2,400,000        42,159

            Total                 $18,386,314    $21,589,174 $3,202,860        $99,459

Total Budget                    $249,972,556* $249,972,556*                   $455,357
    *includes reimbursables
